              Audit of the DAISY/CHICO Component Application of the 

                  RRA Benefit Payment Major Application System 

                        Audit Report No. 07-02, March 9, 2007 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) audit of the
Daily Activity Input System/Checkwriting Integrated Computer Operation
(DAISY/CHICO) system which is used to process payments issued under the Railroad
Retirement Act (RRA).

Background

The Railroad Retirement Board (RRB) administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the RRA and the Railroad Unemployment Insurance Act. These
programs provide income protection during old age and in the event of disability, death,
temporary unemployment or sickness. The RRB paid over $9.5 billion in benefits during
fiscal year 2006.

The RRB’s information system environment consists of two general support systems
and six major application systems. In accordance with standards and guidance
promulgated by the National Institute of Standards and Technology (NIST), the RRB
has designated each of these systems as “moderate impact.” A moderate impact
system has been defined as a system in which the loss of confidentiality, integrity, or
availability could be expected to have a serious adverse effect on organizational
operations, organizational assets, or individuals.

The various systems that support benefit adjudication and payment under the RRA
comprise one of the RRB’s six major application systems. This major application
system includes component applications for information input, benefit calculation, initial
award and adjustment processing, tax accounting, accounts receivable, mass benefit
adjustments, recurring payment processing, and records maintenance. The various
component systems have similar characteristics and security requirements.

DAISY/CHICO is the component of the RRA benefit payment major application system
that processes payments initiated in other RRB automated systems. DAISY/CHICO
receives data input from these other systems, processes it and creates electronic output
files. These output files update other RRB automated systems with payment
information, including the CHICO Master File which supports the payment of recurring
RRA annuities. DAISY/CHICO also processes certain other transactions related to
maintaining the benefit payment rolls, such as changes of address and changes in
entitlement status.

The U.S. Department of the Treasury (Treasury) issues payments on behalf of the RRB.
DAISY/CHICO produces the electronic data file that transmits detailed payment



                                             1

instructions to Treasury. Prior to release of payment, the RRB must formally authorize
Treasury to issue the payments through a separate process known as certification.

DAISY/CHICO performs data edits that may cause individual transactions to be rejected
or referred. Rejected transactions are not processed to completion and require manual
handling. Referred transactions are generated when data edits disclose discrepancies
which are not severe enough to cause the system to reject the transaction such as
those that do not impact the current benefit payment amount. Referred transactions are
processed to completion but are flagged for further review.

Benefit payment award calculations may be made as much as several days prior to
DAISY/CHICO processing, depending upon the input system in which the calculation
originates. Additionally, a benefit payment input system may pass more than one data
file to DAISY/CHICO in a single processing run. A single DAISY/CHICO processing
run may also release more than one data file to Treasury for payment. Changes in
processing occur throughout the month, most commonly in the days leading up to and
immediately following payment of the recurring monthly annuities. Each month, the
Office of Programs prepares an operations calendar showing the various changes in
processing. This calendar is used by the Bureau of Information Services to identify the
appropriate processing runs.

This audit was conducted pursuant to the E-Government Act of 2002 (P.L. 107-347),
Title III, the Federal Information Security Management Act of 2002 (FISMA), which
mandates that agencies develop, document, and implement an agency wide information
security program. The OIG has the responsibility of evaluating the information security
at the RRB.

Objective, Scope and Methodology

The objective of this audit was to determine whether application controls in the
DAISY/CHICO system are operating as designed, and meet the requirements
established by FISMA. Application controls consist of those pertaining to the input,
processing, and the output of data.

To accomplish our objective, we:

   •	 obtained and reviewed the RRB’s policies, procedures, and practices pertaining
      to the application controls in the DAISY/CHICO component system;
   •	 identified and assessed the design of DAISY/CHICO input, processing and
      output controls;
   •	 performed sampling and non-sampling tests of transactions; and
   •	 interviewed responsible management and staff.




                                            2

Our tests of transactions included detailed examination of input data and the resulting
payment output from system activity between February 17 and March 2, 2006.

    •	 We traced samples of data input from four benefit payment systems, through
       DAISY/CHICO, to the resulting output data files and systems, to ensure the
       completeness of DAISY/CHICO processing.1 The details of our sampling
       methodology and results are presented in Appendix II.
    •	 We reviewed all rejected and referred payments, changes of address,
       suspensions/terminations, and miscellaneous non-payment changes to the
       CHICO master record for a two week period. We verified whether the
       transaction had been appropriately controlled, corrected, and reprocessed. The
       details of our sampling methodology and results are presented in Appendix III.
    •	 We verified the accuracy and completeness of payment certifications sent to
       Treasury for DAISY/CHICO processing for a two week period, including 11
       DAISY/CHICO certifications for processing that occurred in the days leading up
       to, including, and immediately following, the March 2006 payment of recurring
       annuities.

Our primary sources of criteria for this audit were definitions and requirements
published by the Office of Management and Budget (OMB), NIST, and internal control
standards established by the Government Accountability Office (GAO).

OMB defines information systems as “a discrete set of information resources organized
for the collection, processing, maintenance, transmission, and dissemination of
information, in accordance with defined procedures, whether automated or manual.”2

FISMA establishes program management and evaluation requirements, as well as
minimum information security requirements, or controls, to be implemented by Federal
agencies. In accordance with FISMA, NIST Federal Information Processing Standards
Publication 200 establishes the NIST Special Publication (SP) 800-53 as the “Minimum
Security Requirements for Federal Information and Information Systems.”3 These
requirements include system and information integrity controls such as input accuracy,
completeness and validity, error handling, and output handling and retention.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters in Chicago, Illinois during January 2006 through November 2006.




1
  A glossary of systems considered in this audit is included as Appendix I. 

2
  OMB Circular A-130, “Management of Federal Information Resources,” November 28, 2000.

3
  NIST SP 800-53, “Recommended Security Controls for Federal Information Systems,” February 2005. 



                                                 3

                                   RESULTS OF REVIEW


Application controls over the input of data to the DAISY/CHICO system and processing
of data by that system are operating as designed, and meet the requirements
established by FISMA. However, output controls do not meet the requirements of
FISMA and need to be improved. Our review disclosed weaknesses in output controls
over rejected transactions and identified a class of transactions for which the output
records do not create adequate transaction history. During our review, we also noted
that published payment certification procedures are outdated.

The details of our findings and recommendations follow. Management has agreed to
take the recommended corrective actions, with a proposed alternate solution for
Recommendation 1. The full text of the Office of Programs’ response is included in this
report as Appendix IV.

Controls Over Some Rejected Transactions Need Improvement

Application controls over rejected transactions are not effective in ensuring system and
information integrity. Our review of rejected transactions showed that, in some
situations, DAISY/CHICO produced discrepant output records, and rejected
transactions requiring manual handling were not always correctly processed.

NIST standards require that security controls for system and information integrity
address the handling and retention of system output.4 These standards require that the
output from information systems be handled and retained in accordance with
organizational policy and operational requirements, and that error conditions be
identified and handled expeditiously. Good business practice and effective application
controls include the verification of output for accuracy and completeness, and the
reporting and controlling of errors to ensure appropriate correction.

Discrepant Output Records

Our review of 55 rejected daily award transactions disclosed three awards for which the
results of DAISY/CHICO processing was incorrectly recorded in other systems that
maintain information to support benefit adjudication.

In each of the three questioned cases, DAISY/CHICO received two payment actions
from two different feeder systems. DAISY/CHICO paid one award, and rejected the
other as a duplicate. However, other components of the RRA benefit payment major
application system that report the results of DAISY/CHICO processing inconsistently
identify the source of the award action.5



4
 NIST SP 800-53, “Recommended Security Controls for Federal Information Systems,” February 2005.
5
 The two feeder systems are ROC and RASI, and the resulting output systems are DATAQ and PREH.
See Appendix I for the full name and description of these systems.


                                                4

Because the system update process is automated, further technical examination of the
responsible mainframe computer programs involved will be required to determine the
cause of these errors.

As a result, the DATAQ system, which is sometimes described as a “snapshot” of
DAISY/CHICO payment activity, contradicts the DAISY/CHICO award and reject listing.
In addition, the two systems that received the DAISY/CHICO output contradict each
other. The contradictory records give the false impression that more than one payment
was issued.6

Rejected Transactions Not Processed to Completion

Our review of transactions rejected by DAISY/CHICO disclosed that the Office of
Programs does not provide adequate follow-up to ensure that such transactions are
processed to completion.

Our review of 133 address changes that were rejected during DAISY/CHICO processing
disclosed 32 for which required agency action had not been completed, leaving the old
address in the system. We also reviewed six miscellaneous changes to the
DAISY/CHICO master record that were rejected during processing and identified two
cases that had not been properly corrected. In one case, the annuitant record
continued to show an incorrect social security number and, in the other, incorrect
annuity entitlement data.

When DAISY/CHICO is unable to process a change as input, the transaction is
identified on a reject listing. The Office of Programs distributes the reject listing to its
personnel in headquarters and the field service. Personnel that initiate changes are
expected to monitor the list, identify rejected transactions that originated with them, and
take action to ensure complete processing.

Existing procedures for handling rejected changes of address and other miscellaneous
corrections are not fully effective because the Office of Programs does not monitor the
disposition of transactions that appear on the change of address and master record
change reject listings. In addition, the electronic listing of rejected changes of address,
available for review on the RRB’s intranet, is periodically cleared of older items, whether
they have been corrected or not.

As a result of weak controls over the handling of rejected transactions, the agency is
vulnerable to errors caused by reliance on incorrect data. For example, errors in
annuitant address records could result in the release of correspondence or checks to a
wrong address, delaying communication or exposing the agency to loss.




6
  We reviewed the file certified to Treasury for payment, and confirmed that only a single payment was
issued.


                                                    5

Other Inconsistent Records

Our review of rejected transactions also included comparison of the corrected data in
the DAISY/CHICO master record with the same information in other agency systems.
We identified a case in which the date of birth in DAISY/CHICO did not agree with the
date of birth in the system that supports Medicare processing. The Office of Programs
does not currently have a procedure to identify such discrepancies and refer them for
manual correction.

Recommendations

We recommend that the Office of Programs:

      1. work with the Bureau of Information Services to identify and correct the cause of
         the discrepant output records of the kind identified by this audit;
      2. use one of the existing automated work scheduling systems to control for the
         correction of rejected changes of address and master record changes; and
      3. develop procedures to identify and refer for correction date of birth discrepancies
         of the kind identified by this audit.

Management’s Response

The Office of Programs concurs with the recommendations, but has proposed an
alternate solution for Recommendation 1. They have advised that one of the feeder
systems involved is scheduled for obsolescence, and therefore, have agreed to
implement additional procedures and training instead of considering program changes.
The Office of Programs has also agreed to expand the use of one of the existing
automated work scheduling systems, and to develop procedures for the identification
and correction of date of birth discrepancies.


Medicare Reimbursement Transactions

The RRB does not maintain adequate records of one-time cash refunds of Medicare
premiums.

GAO standards for internal control in the Federal government require that all
transactions and other significant events be clearly documented, and the documentation
should be readily available for examination.7 Such documentation should be complete,
accurate, and facilitate tracing the transaction or event and related information from
authorization and initiation, through its processing, to completion.8 NIST standards
specifically require that security controls ensure that system output is handled and


7
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.
8
    “Internal Control Management and Evaluation Tool,” GAO-01-1008G (8/01), page 43.


                                                     6

retained in accordance with organizational policy and operational requirements.9
Procedures published in the RRB’s Retirement Claims Manual state that the PREH
database is to be updated daily for entitlement and rate information, including Medicare
premium adjustments, for RRB beneficiaries.

Our review disclosed 18 refunds of Medicare premiums that had not been recorded in
any electronic history system.10 The questioned transactions were reimbursements to
beneficiaries who had paid premiums which had also been paid by their state’s
Medicare premium buy-in program.

Upon further inquiry, we were advised that information about this type of refund was
deliberately excluded from the automated systems that support general claims
processing and Medicare premium collection.11 Although these refunds are included in
the electronic audit file for the system where the refund transaction originates, that file is
insufficiently detailed to distinguish Medicare premium refunds from other one-time
payments.12 In addition, the audit file of a feeder system is not an adequate substitute
for a true record of processed DAISY/CHICO output.

As a result, a comprehensive review of Medicare refund payments would require
examination of multiple sources such as electronic audit files, imaged documents,
award and reject listings, and a payment support system maintained by Treasury.13
Such a cumbersome manual process does not meet either GAO or NIST standards.

Recommendation

     4. We recommend that the Office of Programs request programming changes as
        necessary to ensure that refunds of Medicare premiums are stored in an
        electronic payment history system which can be easily accessed for subsequent
        review or analysis.

Management’s Response

The Office of Programs concurs with the recommendation and will develop a database
to maintain Medicare premium collections and refunds.




9
  NIST SP 800-53, “Recommended Security Controls for Federal Information Systems,” February 2005. 

10
   The refunds identified during our audit were initiated through the SURPASS system as one-payment

only awards which are subsequently passed to the DAISY/CHICO system for payment. See Appendix I 

for the full name and description of this system. 

11
   Such as the PREH, MIRTEL, or MOLI systems. See Appendix I for the full name and description of 

these systems. 

12
   The audit file refers to a record of transactions processed by the SURPASS system. 

13
   The SURPASS audit file, imaged SURPASS documentation, DAISY/CHICO award and reject listings, 

and the Treasury PACER system. See Appendix I for the full name and description of these systems. 



                                                 7

Payment Certification Procedures Are Out of Date

Payment certification procedures published in the RRB’s Retirement Claims Manual are
outdated and do not reflect current practice.

GAO standards for internal control in the Federal government require that controls,
including policies and procedures, be clearly documented and that documentation be
properly managed and maintained.14 NIST standards require organizations to develop,
disseminate, and periodically review and update formal documented procedures to
facilitate the implementation of the system and information integrity policies and
controls. 15

The Treasury issues payments on behalf of the RRB through a process in which the
RRB “certifies” that payment should be made. Sections of the Retirement Claims
Manual describing procedures for the certification of payments to Treasury have not
been updated since 2003. During our review, we noted that existing procedures refer to
an obsolete system which was replaced in 2004.16 Office of Programs’ personnel
responsible for certification of payments to Treasury told us they rely solely on the
instructional packets they received when training was provided for the replacement
system.

Inadequate and outdated procedures increase the risk that transactions will not be
processed consistently or accurately.

Recommendation

     5. We recommend that the Office of Programs review and revise published 

        procedures for the certification of payments to Treasury. 


Management’s Response

The Office of Programs concurs with the recommendation and has agreed to revise the
procedures for the certification of payments to Treasury.




14
   “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.
15
   NIST SP 800-53, “Recommended Security Controls for Federal Information Systems,” February 2005.
16
   Electronic Certification System was replaced by Secure Payment System in 2004.


                                                 8

                                                                             Appendix I


                                 Glossary of Systems

ASTRO - Automated System to Recover Overpayments -- A system designed to
monitor the various phases in the overpayment recovery process and to initiate
suspension or award actions at the proper time in order to begin or conclude recovery.

CHICO - Checkwriting Integrated Computer Operation -- The benefit payments
check writing operation. CHICO screens all awards and suspension/termination actions
against the master benefit payment file and updates the master file with the new
transactions.

DAISY - Daily Activity Input System -- The system that produces a record of all award
activity involving the payment of benefits. DAISY edits all award records to ensure
completeness and balances individual voucher batches. DAISY’s output becomes the
input of the CHICO program.

DAISY COA REJECTS -- An electronic report of rejected change of address
transactions. Field offices are responsible for reviewing the report each day and
preparing corrected transactions, as necessary.

DATAQ - Data Query -- An on-line system that allows access to selected data in the
CHICO file.

IMAGING System -- A system used to store electronic images of documents
obtained/created during processing. Documents include correspondence from
annuitants and electronic output such as awards, award letters, and rejects from the
daily payment processing system.

MIRTEL - Medicare Information Recorded, Transmitted, Edited and Logged -- A
system that records and maintains health insurance information for all eligible aged and
disabled beneficiaries regardless of enrollment or annuity status.

MOLI - MIRTEL On-Line Inquiry -- An on-line system that allows access to selected
data in the MIRTEL file.

PACER - Payments Accounting Claims Enhancements Reconciliation -- A U.S.
Department of the Treasury System which allows users to query information, create
claims, and request digital images of negotiated checks of all payments issued by their
agency.

PARS - Program Accounts Receivable System -- A system which contains an
accounts receivable record for every overpaid annuitant under the Railroad Retirement
Act. PARS provides for the automation of tracking and maintenance of accounts
receivable originating from benefit overpayments.

PAYBACK - On Line Cancelled Payment Data -- A system which provides on-line
viewing access of cancelled checks and returned direct deposit/electronic funds transfer
payments.
                                           9

                                                                             Appendix I



PREH - Payment, Rate, and Entitlement History -- A system which contains
entitlement and historical rate information for employee, spouse and survivor railroad
annuitants.

RASI - Retirement Adjudication System-Initial -- A system which adjudicates,
calculates and awards initial employee and/or spouse annuities.

RESCUE – Recalculate for Service and Compensation Updated to EDM --A system
developed to automate annuity adjustments in response to changes in railroad service,
railroad compensation, or social security wages posted to the Employment Data
Maintenance (EDM) database, and Separation Allowance Lump Sum Annuity (SALSA)
payments in response to changes made in the separation payments master records.

REQUEST - RASI Examiner Query Using Electronic System Terminals -- A system
which allows on-line access to selected data in the RASI file.

ROC - Retirement On-Line Calculations -- An on-line system for calculating and
paying retirement awards.

STAR - System of Tracking and Reporting -- A work management system used to
assign and control work. STAR tracks a case from receipt until completion.

SURPASS - Survivor Payments System -- An on-line system for calculating and
paying survivor awards. Retirement annuities due but unpaid at the time of death, and
one-payment-only awards for the reimbursement of Medicare premiums are also paid
through SURPASS.

TAS - Taxation Accounting System -- A database used to account for all payments to,
and recoveries from, each beneficiary for tax reporting purposes.

WEB CONNECTOR -- The browser that allows for viewing of documents that are in the
Imaging System.

WORKDESK -- An electronic workflow system that is used to manage, assign, control
and view documents that are in the Imaging System.

WORKLIST -- An inquiry and update system which is designed to accept and display
transaction records from numerous systems used at the RRB. These transactions may
be notices of rejects, requests for additional information, situations needing
investigation, or any category of work requiring action.




                                           10

                                                                              Appendix II
                     SAMPLING METHODOLOGY AND RESULTS
                          Completeness of Processing

We used a combination of statistical sampling and 100% review to evaluate the
effectiveness of controls in ensuring the completeness of Daily Activity Input
System/Checkwriting Integrated Computer Operation (DAISY/CHICO) processing.

Audit Objective

The objective of our test was to determine whether existing controls are effective in
ensuring the completeness of DAISY/CHICO processing.

DAISY/CHICO processes payments as well as non-payment corrections such as
changes of address. We consider processing complete if all transactions input to
DAISY/CHICO are fully processed so that:

    •	 payments are properly certified to Treasury and issued;
    •	 other RRB systems are updated to reflect the results of payment processing
       according to system design;
    •	 non-payment record corrections correctly update other RRB systems; and
    •	 rejected transactions are properly identified.

Scope

We selected transactions for testing from data input files created between February 17
and March 1, 2006, and processed by the DAISY/CHICO system between February 22
and March 1, 2006.

We did not test all input files processed by DAISY/CHICO during that period; we limited
our tests to transactions originating in the following selected applications that support
the processing of retirement and survivor benefits:

   •	 Retirement Adjudication System - Initial (RASI),
   •	 Retirement On-Line Calculations (ROC),
   •	 Survivor Payments System (SURPASS), and
   •	 Automated System to Recover Overpayments (ASTRO).


Sampling Methodology

We identified 16 groups of transactions (input files) for testing based on the application
in which the transactions originated (input system) and the date on which the input files
were created. Each group was treated as a separate universe. The sampling unit was
a single input record within that universe.

When the universe was small, we examined 100% of the transactions; larger universes
(more than 150 transactions) were evaluated using statistical attribute discovery

                                            11

                                                                                        Appendix II
                       SAMPLING METHODOLOGY AND RESULTS
                            Completeness of Processing

sampling with sample sizes determined based on a desired 90% confidence and 2%
tolerable error rate. Using these sampling parameters, if no errors are identified, the
auditor may infer with 90% confidence that the occurrence rate of errors does not
exceed approximately 2%.

We selected a total of 1,246 transactions for review. Transactions in the attribute
discovery samples were selected at random. A table summarizing the transaction
groupings, and the number of transactions selected for review from each group is
presented on the last page of this appendix.

Review Methodology

To determine completeness of processing, we traced each transaction selected for
review to the applicable DAISY/CHICO output which includes:

     •   a payment on a transaction file sent to Treasury,
     •   a non-payment record correction,
     •   a rejected activity.

We also traced each sample item to the automated systems that maintain the historical
record of benefit payment processing: the Payment, Rate, and Entitlement History
(PREH) and/or Taxation Accounting System (TAS) databases, as applicable.

An error was defined as any input record which could not be traced to the resulting
DAISY/CHICO output or had not been properly updated to the applicable historical
system.17

Results of Review

We found that all transactions were processed in accordance with management’s
directives. However, our tests identified 18 Medicare refunds for which output records
are not maintained in other agency systems that support benefit adjudication and
payment processing, which is a control weakness.

Conclusion

We conclude with 90% confidence that incomplete processing would not exceed
approximately 2% of DAISY/CHICO transactions. We recommend no corrective action.

However, the RRB needs to improve output controls over the refund of Medicare
premium refunds. The details of our findings and recommendation are presented in the
body of this report.


17
  Transactions that were not updated to PREH or TAS based on their attributes, were verified by the
auditors and are not considered errors. For example, a non-taxable payment would not be updated to the
TAS database. See Appendix I for the full name and description of these systems.

                                                 12

                                                                             Appendix II
                    SAMPLING METHODOLOGY AND RESULTS
                         Completeness of Processing

The following table details the sources of transactions reviewed during our tests of
completeness and the number of transactions reviewed compared to the universe of
transactions. It also shows whether we reviewed all the records in the universe or
selected records randomly as part of a statistical attribute discovery sample.

                INPUT
   INPUT       SYSTEM        DAISY RUN     UNIVERSE      SAMPLE        SELECTION
  SYSTEM        DATE           DATE          SIZE         SIZE       METHODOLOGY
    RASI        02/17/06      02/22/06              18        18       100% Review
    RASI        02/21/06      02/22/06              16        16       100% Review
    RASI        02/22/06      02/24/06              18        18       100% Review
    RASI        02/23/06      02/24/06              20        20       100% Review
                                                                   Discovery Acceptance
    RASI        02/24/06      02/27/06             642       105
                                                                         Sampling
                                                                   Discovery Acceptance
    RASI        02/27/06      02/28/06             292        95
                                                                         Sampling
                                                                   Discovery Acceptance
    RASI        02/28/06      03/01/06             236        91
                                                                         Sampling
    ROC         02/22/06      02/22/06             106       106       100% Review
                                                                   Discovery Acceptance
    ROC         02/24/06      02/24/06             180        85
                                                                         Sampling
                                                                   Discovery Acceptance
    ROC         02/28/06      02/28/06             522       103
                                                                         Sampling
                                                                   Discovery Acceptance
    ROC         03/01/06      03/01/06             192        86
                                                                         Sampling
                                                                   Discovery Acceptance
 SURPASS        02/22/06      02/22/06             161       82
                                                                         Sampling
                                                                   Discovery Acceptance
 SURPASS        02/24/06      02/24/06             205       88
                                                                         Sampling
                                                                   Discovery Acceptance
 SURPASS        02/28/06      02/28/06             668       105
                                                                         Sampling
                                                                   Discovery Acceptance
 SURPASS        03/01/06      03/01/06             201       87
                                                                         Sampling
   ASTRO        02/27/06      02/27/06             141       141       100% Review


                 Total Number of Transactions Reviewed     1,246




                                             13

                                                                             Appendix III

                    SAMPLING METHODOLOGY AND RESULTS 

                       Rejected and Referred Transactions 


We performed non-sampling tests (100% review) to assess the effectiveness of controls
over transactions rejected or referred from Daily Activity Input System/Checkwriting
Integrated Computer Operation (DAISY/CHICO).

Audit Objective

The objective of our test was to determine whether rejected and referred transactions
had been properly controlled, corrected, and reprocessed.

Scope

We reviewed every transaction that was rejected or referred by DAISY/CHICO during
the two week period from February 17 through March 2, 2006, which included eight
DAISY/CHICO runs consisting of payments, change of address requests,
suspension/termination actions, and miscellaneous non-payment changes to the
CHICO master record. A total of 236 transactions fell within the scope of audit testing.

Review Methodology

For each of the transactions within the scope of audit testing, we reviewed supporting
input and output systems for evidence of the rejected or referred transaction and/or its
subsequent correction and reprocessing. An error was defined as any rejected or
referred transaction that had not been properly corrected and reprocessed or that had
been inappropriately dropped from processing.

Results of Non-Sampling Tests

Our review of 236 rejected and referred transactions identified 3 rejected awards with
discrepant output records; and 32 changes of address and 3 rejected master record
changes that had not been adequately controlled, corrected, and reprocessed.

The details of the DAISY/CHICO processing dates, the corresponding number of
rejected/referred transactions, and the number of audit exceptions are presented on the
next page of this appendix.

Audit Conclusion

Based on the results of our tests, we concluded that the Office of Programs needs to
improve controls over rejected transactions. The details of our findings and
recommendation are presented in the body of this report.




                                            14

                                                              Appendix III

      SAMPLING METHODOLOGY AND RESULTS
         Rejected and Referred Transactions

DAISY/CHICO              DAISY/CHICO
PROCESSING            REJECTED/REFERRED            AUDIT
   DATE                 TRANSACTIONS             EXCEPTIONS
                         Daily Awards
  02/17/06                               14               0
  02/21/06                               12               0
  02/22/06                                3               0
  02/24/06                                2               0
  02/27/06                                9               0
  02/28/06                                9               3
  03/01/06                                4               0
  03/02/06                                2               0
             Total                       55               3
                Change of Address Requests
  02/17/06                             27                 5
  02/21/06                              0                 0
  02/22/06                              0                 0
  02/24/06                              0                 0
  02/27/06                             64                17
  02/28/06                              8                 0
  03/01/06                             15                 5
  03/02/06                             19                 5
             Total                    133                32
         Suspension and Termination Actions
  02/17/06                          11                    0
  02/21/06                           0                    0
  02/22/06                           0                    0
  02/24/06                           0                    0
  02/27/06                          22                    0
  02/28/06                           6                    0
  03/01/06                           0                    0
  03/02/06                           3                    0
           Total                    42                    0
                     Master Record Changes
  02/17/06                                   0            0
  02/21/06                                   0            0
  02/22/06                                   0            0
  02/24/06                                   0            0
  02/27/06                                   0            0
  02/28/06                                   0            0
  03/01/06                                   0            0
  03/02/06                                   6            3
             Total                           6            3
 All Activity                           236              38




                                  15

